NO. 20-1381
IN THE SUPREME COURT OF THE UNITED STATES

MATTHEW FOX, PROSECUTING ATTORNEY,
MERCER COUNTY, OHIO, JEFF GREY,
SHERIFF, MERCER COUNTY, OHIO, AND

J.K., THE CRIME VICTIM
Petitioners,
Vv.

CHARLES A. SUMMERS,
Respondent.

CERTIFICATE OF COMPLIANCE
I, Jacquenette S. Corgan, hereby certify that the Brief of Amicus Curiae Ohio
Prosecuting Attorneys Association in Support of Petitioners in the above-captioned
case complies with the word-count provisions set forth in Supreme Court Rule
33.1(h). The brief contains 2,844 words, excluding parts of the brief that are
exempted by Rule 33.1(d).

SHERRI BEVAN WALSH
Prosecuting Attorney
Summit County Ohio

ir hunene S. CORGAN

Assistant Prosecuting Attorney
Counsel of Record

53 University Avenue, 6" Floor
Akron, Ohio 44308

(330) 643-2800

Ohio Reg. No. 0072778
Jcorgan@prosecutor.summitoh.net

COUNSEL FOR AMICUS CURIAE
OHIO PROSECUTING ATTORNEYS
ASSOCIATION
